<html>
<title> - COMBATING CRIMES AGAINST CHILDREN: ASSESSING THE LEGAL LANDSCAPE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






    COMBATING CRIMES AGAINST CHILDREN: ASSESSING THE LEGAL LANDSCAPE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2017

                               __________

                            Serial No. 115-7

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://judiciary.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-992                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan,
    Wisconsin                          Ranking Member
LAMAR S. SMITH, Texas                JERROLD NADLER, New York
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
STEVE KING, Iowa                     STEVE COHEN, Tennessee
TRENT FRANKS, Arizona                HENRY C. ``HANK'' JOHNSON, Jr.,
LOUIE GOHMERT, Texas                   Georgia
JIM JORDAN, Ohio                     THEODORE E. DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
RAUL LABRADOR, Idaho                 DAVID N. CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
RON DeSANTIS, Florida                JAMIE RASKIN, Maryland
KEN BUCK, Colorado                   PRAMILA JAYAPAL, Washington
JOHN RATCLIFFE, Texas                BRAD SCHNEIDER, Illinois
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel

                                 ------                                

 Subcommittee on Crime, Terrorism, Homeland Security and Investigations

                  TREY GOWDY, South Carolina, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman
JIM SENSENBRENNER, Jr., Wisconsin    SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
MARTHA ROBY, Alabama                 TED LIEU, California
MIKE JOHNSON, Louisiana              JAMIE RASKIN, Maryland



















                            C O N T E N T S

                              ----------                              

                             MARCH 16, 2017

                           OPENING STATEMENTS

                                                                   Page
The Honorable Trey Gowdy, South Carolina, Chairman, Subcommittee 
  on Crime, Terrorism, Homeland Security, and Investigations; 
  Committee on the Judiciary.....................................     1
The Honorable Sheila Jackson Lee, Texas, Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations; Committee on the Judiciary**...................     3
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     3
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

Mr. John Shehan, Vice President, Exploited Children Division, 
  National Center for Missing and Exploited Children
  Oral Statement.................................................     7
Ms. Francey Hakes, Child Protection Advocate; Former Assistant 
  United States Attorney; Former National Coordinator for Child 
  Exploitation Prevention and Interdiction
  Oral Statement.................................................     9
Detective Patrick Beaver, Loudon County Sheriff's Office, Member 
  of the Internet Crimes Against Children Task Force
  Oral Statement.................................................    10
Ms. Nicole Pittman, Vice President and Director of the Center on 
  Youth Registration Reform, Impact Justice
  Oral Statement.................................................    12

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

**Statement submitted by the Honorable Sheila Jackson Lee, Texas, 
    Committee on the Judiciary. This material is available at the 
    Committee and can be accessed on the committee repository at:

  http://docs.house.gov/meetings/JU/JU08/20170316/105712/HHRG-115-JU08-
MState-J000032-20170316.pdf
 
    COMBATING CRIMES AGAINST CHILDREN: ASSESSING THE LEGAL LANDSCAPE

                              ----------                              


                        THURSDAY, MARCH 16, 2017

        House of Representatives, Subcommittee on Crime, 
            Terrorism, Homeland Security, and 
            Investigations, Committee on the Judiciary,
                                                    Washington, DC.

    The subcommittee met, pursuant to call, at 2:25 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Trey Gowdy 
[chairman of the subcommittee] presiding.
    Present: Representatives Gowdy, Goodlatte, Gohmert, Chabot, 
Poe, Ratcliffe, Roby, Johnson of Georgia, Johnson of Louisiana, 
Conyers, Bass, Richmond, Jeffries, Lieu, and Raskin.
    Staff Present: Margaret Barr, Counsel; Scott Johnson, 
Clerk; Joe Graupensperger, Minority Chief Counsel, Subcommittee 
on Crime, Terrorism, Homeland Security and Investigations; 
Veronica Eligan, Minority Professional Staff Member; and Mauri 
Gray, Minority Crime Detailee.
    Mr. Gowdy. The committee will come to order.
    The Subcommittee on Crime, Terrorism, Homeland Security, 
and Investigations will come to order.
    Without objection, the chair is authorized to declare a 
recess of the subcommittee at any time.
    We welcome everyone to today's hearing on Combating Crimes 
Against Children. And I will recognize myself for an opening 
statement, then I'll recognize the gentleman from Michigan, 
then the chairman of the full committee, if he is able to make 
it, and then we will begin our questioning.
    So I want to thank each of you for being up here today. 
Today's hearing addresses one of the most difficult issues for 
people of good consciousness to contemplate, the exploitation 
of society's most innocent and vulnerable, which would be our 
children. Public safety is the preeminent function of 
government, and even among the preeminence of this function, 
protecting those who cannot fully protect themselves is most 
important.
    Today begins our process of examining current laws 
pertaining to the exploitation of children and to evaluate the 
effectiveness of these laws and work together across every 
proverbial aisle that exists to make sure our laws are as tough 
and effective as possible, and then where needed, strengthen 
where needed.
    I want to thank our witnesses for being here today, but 
more importantly for every day other than today, while you are 
living out your commitment and dedication to combating and 
preventing child exploitation and abuse. No longer is it simply 
physical proximity that puts our children in danger, the 
internet and other things have created an alternative world 
where sex offenders can easily and sometimes surreptitiously 
exploit our children through just a few strokes on the 
keyboard.
    Not only are offenders finding vulnerable victims, they are 
also finding other people who share their depravities. These 
online communities embolden predators leading to even more 
egregious and criminal behavior. The images being produced and 
distributed on the internet today target even younger children, 
including infants with ever more graphic images.
    Over the past decades, Congress has enacted a number of 
laws to protect children from exploitation. In 1984, Congress 
established the creation of the National Center for Missing & 
Exploited Children, a nonprofit organization to help prevent 
child abduction and sexual exploitation, help find missing 
children and to assist victims and their families.
    The National Center for Missing & Exploited Children has 
played a critical role in not only contributing to public 
awareness of the threats of sexual exploitation on the internet 
but also in assisting law enforcement by facilitating the 
reporting of these crimes and identifying and locating children 
so they can be rescued.
    Tragically, more often than not a victim's image is 
redistributed time and time again long after a picture has been 
posted, the victim could be revictimized hundreds of time over. 
This permanent depiction of abuse can revictimize victims for 
the remainder of their lives. If you are a victim of sexual 
abuse or exploitation, there is no statute of limitations on 
your own personal suffering.
    The goals of this National Center for Missing & Exploited 
Children, we are now able to use certain technology to identify 
a child in an image so we can assure they are fully able to 
seek justice.
    In 1998, Congress passed the Jacob Wetterling Crimes 
Against Children and Sexual Violent Offender Registration Act, 
which require States to track violent offenders.
    In 2006, the Adam Walsh Act was signed into law. Under this 
Federal statute came the creation of a national sex offender 
registry, which requires each State to apply criteria for 
public posting offender data on the internet. It also created 
an office at the Justice Department to oversee the standards 
for sex offender notification and registration requirements.
    In 1998, the Department of Justice established the task 
forces to investigate Internet Crimes Against Children. This 
program has been incredibly successful. In 2015 alone, these 
task force programs conducted more than 54,000 investigations 
and 61,000 forensic exams. These efforts resulted in the arrest 
of more than 8,500 suspects.
    In the wake of evolving technologies and new ways to commit 
crimes, Congress has also passed laws to combat child 
pornography. Last year we introduced the Justice For Child 
Victims Act, which creates a compensation fund paid for by 
child pornography defendants as an alternative avenue for 
victims to quickly obtain the financial support needed for 
recovery.
    So remarkable progress has been made in preventing crimes 
against children as well as investigating and prosecuting these 
offenses, but there is more to do. Predators will continue to 
do everything to remain undetected, and it is our fundamental 
and constitutional duty to implement tools to enable law 
enforcement and investigators to track down these predators.
    Children are the most vulnerable and innocent of victims. 
They are completely dependent upon us. They merit the greatest 
protections our law allows. They merit the most severe form of 
punishment the law allows. This includes everything from 
preventing these crimes from occurring, strengthening the 
ability to investigate these crimes, strengthening the 
prosecution and pretrial methodologies so children are 
interviewed as few times as possible by trained professionals 
who know how to both talk to and listen to children, and 
assuring victims have access to restitution and support 
services to fully aid them in the recovery process.
    So with that, I would thank our witnesses, again. I look 
forward to our conversation, and would recognize the gentleman 
from Michigan, the ranking member of the full committee, Mr. 
Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    May I read the three sentences of Congresswoman Sheila 
Jackson Lee, who is in a markup in another committee?
    Mr. Gowdy. Yes, sir.
    Mr. Conyers. Thank you. And here's what is said in her 
behalf: Our ranking member, Congresswoman Sheila Jackson Lee is 
also a member of the House Budget Committee, which is currently 
debating the healthcare bill. She will not be able to attend 
this hearing today, but she expresses her passion for combating 
crimes against children, which is a major problem in her 
district and the city of Houston in the form of human 
trafficking.
    As ranking member of this subcommittee and founder and 
chair of the Childrens Caucus, she pledges her support to work 
together to create a legal system that protects all our 
children and punishes the perpetrators of crimes against 
children.
    Mr. Conyers. And, now, in my own behalf, I wanted to 
mention that today's hearings, Mr. Chairman and members, by 
this subcommittee, will discuss the serious and disturbing 
issue of the criminal victimization of children.
    With all of our efforts to fight the various forms of child 
exploitation, it continues to be a threat to our young people. 
However, we've developed strategies to both prevent and respond 
to these crimes and to assist the many children who are 
victims. I trust we will learn about our--about the strategies 
that are working and how we can do better.
    In April of last year, the Department of Justice reported 
to us that the main threats in this area in the next 5 years 
will be child pornography, sex extortion, child sex 
trafficking, sex offender registry violations, and child sex 
tourism.
    Response to these crimes involve an intricate network of 
Federal, State, and local law enforcement and prosecutorial 
agencies and private nonprofit organizations and advocates 
supported by direct Federal funding authorizations and grant 
programs, all working together to keep our youngest 
constituents safe from harm.
    Today, we will hear from individuals representing some of 
the entities involved in this necessary mission, and their 
roles illustrate the ways we can do more and do better. We're 
proud to have these four witnesses with us.
    First, we, in Congress, must recognize that while we can 
enact Federal legislation, State and local law enforcement are 
on the front lines, and we must support their partnerships with 
Federal agencies.
    The Internet Crimes Against Children task force program, 
funded through the Justice Department's Office of Juvenile 
Justice and Delinquency Prevention, provides training and 
technical assistance and regularly conducts undercover, online 
investigative operations.
    Since Congress mandated creation of this program, 3,500 
Federal, State, and local law enforcement and prosecutorial 
agencies have joined to form 61 coordinated regional task 
forces.
    These task forces are especially important now, because 
we're seeing a tremendous increase in crimes perpetrated 
against children on the internet.
    Detective Patrick Beaver from the Loudoun County Virginia 
sheriff's office will speak to us today about his successes 
that his office have enjoyed working with the northern Virginia 
Internet Crimes Against Children task force to conduct an 
operation targeting internet predators last year.
    Next, we must provide specialized assistance to families, 
victims, and law enforcement to help prevent child abductions, 
recover missing children, identify and assist victims of child 
pornography and child sex trafficking. That is the mission of 
the National Center for Missing & Exploited Children. And we 
will hear from their representative today about what they're 
experiencing in providing this assistance.
    As a former local and Federal prosecutor, Ms. Francey Hakes 
will also help us about the challenges at the State and local 
level in fighting these crimes and enforcing our laws.
    All of this will help us consider legislation to amend and 
reauthorize important statutes such as the Adam Walsh Act and 
the Trafficking Victims Protection Act.
    Clearly, we must do more to prevent and investigate these 
crimes and especially assist their many victims.
    When we do apprehend and convict offenders, we must 
recognize that most of them will be released back into society 
at some point.
    The Sex Offender Registration and Notification Act is 
intended to establish a nationwide system of monitoring and 
trafficking sex offenders, particularly after they are released 
from prison.
    Currently, there are over 850,000 registered sex offenders 
in this country. If we're going to have such a system, we must 
ensure that it is used in the appropriate circumstances and in 
the most effective manner.
    However, only 17 States are in substantial compliance with 
its requirements. States, policymakers, researchers, and 
advocates, continue to object to the requirements established 
by SORNA for many reasons. One of the most pervasive criticisms 
of SORNA is the inclusion of juveniles on registries.
    Ms. Nicole Pittman is here today to discuss the real impact 
of juvenile registration on the juveniles, their families, and 
the overall effectiveness of SORNA.
    I thank the chairman for holding this hearing on this 
important topic. We all wish that child exploitation could be 
eradicated, but the problem persists. With what we learn today, 
I hope we can work together to come closer to achieving our 
goal.
    I thank the chair.
    Mr. Gowdy. The chair thanks the gentleman from Michigan and 
now recognize the gentleman from California, the chairman of 
the full committee, Mr. Goodlatte.
    Chairman Goodlatte. Except I'm from Virginia.
    Mr. Gowdy. What did I say?
    Chairman Goodlatte. California.
    Mr. Gowdy. Whatever I said, I meant Virginia.
    Chairman Goodlatte. Mr. Chairman, notwithstanding that, I 
am very pleased that you're holding this hearing, and I thank 
you for the opportunity to say a few words about it. It's a 
very important hearing on combating crimes against children.
    Much progress has been made over the past few decades in 
preventing, investigating, and prosecuting child exploitation 
crimes, but there is still work to be done. The Bureau of 
Justice Statistics once reported that 67 percent of all victims 
of sexual assault, reported to law enforcement agencies, were 
juveniles under the age of 18. 34 percent of all victims were 
under age 20--under age 12. These statistics are unacceptable 
and are especially frightening in light of the fact that most 
child sexual abuse goes unreported. It is for this reason we 
must remain vigilant in protecting the most vulnerable and 
innocent victims of crime, our children.
    As a father and grandfather, I can think of no more 
important role for law enforcement. Over the past several 
years, Congress has taken important steps to prevent criminals 
from victimizing children in the first place. This includes the 
establishment of a national sex offender registry and the 
passage of the Adam Walsh Child Protection and Safety Act, a 
comprehensive set of national guidelines for State sex offender 
registries.
    These registries are crucial in ensuring that sex offenders 
are not living off the grid, are not evading State and Federal 
law enforcement, and most importantly, are not having 
unsupervised interactions with children. I very much appreciate 
the work of the United States Marshals and the contributions of 
the National Center for Missing & Exploited Children to this 
effort. Each provides assistance to State and local law 
enforcement in locating noncompliance sex offenders, people who 
pose a very real risk to our children.
    The U.S. Marshals were tasked with this mission in the 
original Adam Walsh Act in 2006 and have worked acidulously in 
locating and apprehending fugitive sex offenders. However, more 
work is needed to secure the implementation of the national 
standards in every State so important information can be easily 
shared between jurisdictions.
    I thank Congressman Sensenbrenner for his introduction of 
the Adam Walsh Reauthorization Act, legislation that is 
necessary to maintain the good accomplished by this act and 
improve the system to be more efficient and more just.
    Sex offenders will often go to great lengths to get close 
to children, to gain their trust, and then take advantage of 
their naivete. That is why it's important that organizations 
that serve children and which are meant to provide children 
with mentors can be sure their volunteers and employees do not 
have a history of predatory behavior.
    I commend the work of Congressman Bishop and Schiff 
introducing the Child Protection Improvements Act, which will 
give these organizations quick and affordable access and 
information to FBI databases when conducting background 
investigations.
    We have a distinguished panel of witnesses here today to 
discuss this difficult subject, people who have dedicated their 
careers to protecting children and who are familiar with the 
pervasive nature of these crimes and the challenges in ending 
them.
    I look forward to hearing from our panel about the problems 
that are being encountered in preventing and investigating 
these crimes and what Congress and the States can do to help 
further combat them.
    Congress has passed a number of bills to address the crisis 
of child exploitation in the United States, but we must keep up 
with this ever evolving criminal behavior. This hearing will 
help us determine what more can be done to end these terrible 
crimes.
    I thank all of you for being here today, and I yield back. 
Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from the Commonwealth of 
Virginia and beg his forgiveness, again, for putting him in a 
State other than the Commonwealth of Virginia.
    We have a very distinguished panel today. I will begin by 
swearing in our witnesses. If you would please rise and lift 
your right-hands.
    Do you swear the testimony you are about to give before 
this committee will be the truth, the whole truth, and nothing 
but the truth so help you God?
    May the record indicate that all witnesses answered in the 
affirmative.
    You are welcome to sit down. I will introduce you as a 
group, and then I will recognize you individually. I would tell 
you upfront, all members have access to your opening 
statements. All members either have or will read your opening 
statements. So to the extent you can, summarize it within the 
5-minute time period so the members--and we have a great 
participation today--so the members can get to their questions.
    Our first witness is Mr. John Shehan, who is the vice 
president of the Exploited Children Division at the National 
Center for Missing & Exploited Children.
    Our second witness is Ms. Francey Hakes. She's a child 
protection advocate, former AUSA and former national 
coordinator for child exploitation, prevention, and 
interdiction.
    Our third witness is Detective Patrick Beaver of the 
Loudoun County Sheriff's Office. Detective Beaver is a member 
of the Internet Crimes Against Children task force.
    And our fourth witness is Ms. Nicole Pittman. She's the 
vice president and director of the center on Youth Registration 
Reform at Impact Justice.
    With that, Mr. Shehan, you are recognized for 5 minutes.

 TESTIMONY OF JOHN SHEHAN, VICE PRESIDENT, EXPLOITED CHILDREN 
 DIVISION, NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN; 
 FRANCEY HAKES, CONSULTANT & CHILD PROTECTION ADVOCATE, FORMER 
 ASSISTANT UNITED STATES ATTORNEY, FORMER NATIONAL COORDINATOR 
 FOR CHILD EXPLOITATION PREVENTION AND INTERDICTION; DETECTIVE 
PATRICK MCNEIL BEAVER, LOUDOUN COUNTY SHERIFF'S OFFICE, MEMBER 
OF THE INTERNET CRIMES AGAINST CHILDREN TASK FORCE; AND NICOLE 
  PITTMAN, VICE PRESIDENT AND DIRECTOR OF THE CENTER ON YOUTH 
              REGISTRATION REFORM, IMPACT JUSTICE

                    TESTIMONY OF JOHN SHEHAN

    Mr. Shehan. Thank you. Good afternoon. My name is John 
Shehan. And I'm the vice president of the Exploited Child 
Division at the National Center for Missing & Exploited 
Children. I've been with NCMEC for 17 years and have served in 
my role as vice president since 2015. NCMEC was created in 1984 
as a private, nonprofit organization. Our mission is to help 
reunite families with missing children, to help reduce child 
sexual exploitation, and prevent child victimization. Our 
founders are John and Reve Walsh.
    NCMEC is funded by both the private and public sectors, 
which enables us to engage in a coordinated national response 
to the problem of missing and exploited children. NCMEC has 
multiple programs to assist families, child victims, the 
families that serve them, and law enforcement on cases of 
sexual exploited children.
    More specifically, NCMEC has two core programs to 
facilitate the reporting of child sexual abuse content and to 
help identify child victims. Those two programs are the 
CyberTipline and Child Victim Identification Program.
    NCMEC launched the CyberTipline in 1998 to provide the 
public with an efficient method of reporting incidents of 
suspected child sexual exploitation, including child 
pornography. We later expanded this successful program to 
enable reporting by U.S.-based electronic service providers. 
Federal law now requires electronic service providers to report 
apparent child pornography that they become aware of on their 
systems to NCMEC CyberTipline.
    CyberTipline reports are reviewed by NCMEC staff who 
examine the content, use publicly available resources to add 
relevant information, and then make the reports available to 
law enforcement for potential review by law enforcement in the 
investigation. Reports are triaged 24/7 to ensure that any 
children who may be in imminent danger are given first 
priority.
    Since its creation, the CyberTipline has received more than 
18 million reports. The number of reports continue to increase 
exponentially year after year, and we now average more than 
250,000 reports per week. In the first 2 months of 2017, we 
received more than 2 million reports into the CyberTipline.
    The increase in reports can be attributed to steps being 
taken by the leading U.S.-based technology companies, who 
voluntarily choose to proactively find child sexual abuse 
images and videos on their platform using hash values, often 
referred to as digital fingerprints. Even though our focus is 
on domestic crimes, many reports come into the CyberTipline 
from U.S.-based companies where the crime occurred overseas. As 
a result, NCMEC has grown into a globally recognized 
clearinghouse for information on these issues and make 
CyberTipline reports available to more than 100 national police 
forces around the world, including Interpol and Europol.
    As our Nation's clearinghouse, NCMEC's CyberTipline also 
provides key opportunities to discover emerging trends in the 
area of child sexual exploitation. While we do not see any slow 
down in child pornography reports, the crime of exploitation 
continues to evolve, including significant growth in sextortion 
and the online enticement of children for sexual acts. Despite 
these increasing trends, there is great work being done to 
respond and prevent these types of crimes.
    NCMEC continues to partner with key leaders in combating 
this crime, including the technology coalition, nongovernmental 
organizations such as In Hope, the internet industry, and law 
enforcement.
    I would like to specifically commend the Internet Crimes 
Against Children task force. They do amazing work, handle the 
bulk of domestic CyberTipline reports, and work tirelessly to 
protect children from sexual abuse. We are also working with 
victims and their families to address their ongoing needs for 
recovery through NCMEC programs such as Team Hope and our 
family advocacy division.
    In addition, here in Congress, we want to continue to work 
with you to ensure that victims can find recovery and support 
services they need, including working with the committee to 
find a path forward after the Paroline decision to provide 
child pornography victims with restitution.
    At NCMEC, we continue to look for ways to best educate our 
children, their families, and the public on how to prevent 
these crimes from happening and how to respond to them when 
they do. Our clearinghouse work provides us with data and 
research necessary to alert the public on new and emerging 
trends, which leads to the development of a number of new NCMEC 
products, technical assistance, and other services.
    We also provide Congress, outside organizations, and the 
public with technical assistance and advice on possible 
legislation to provide safer environments for our children. For 
example, the Child Protection Improvements Act and the Adam 
Walsh Act. One pending before Congress and one already law, aim 
to provide mechanisms to ensure the safety of our children as 
they go about their daily lives.
    I want to take a moment to thank the committee for your 
ongoing work on these initiatives.
    In closing, I want to thank you, Mr. Chairman, Ranking 
Member Conyers, and this committee for having this hearing 
today. We at NCMEC look forward to continuing to work with you 
on these critical issues, and I look forward to any questions 
you may have.
    Mr. Gowdy. Thank you, Mr. Shehan.
    Ms. Hakes.

                   TESTIMONY OF FRANCEY HAKES

    Ms. Hakes. Thank you, Chairman Gowdy, and Ranking Member 
Conyers. I'd like to thank you for inviting me to appear before 
this subcommittee.
    Child abuse, child exploitation, child sex trafficking, 
child molestation, child pornography, they all sound a bit 
clinical for what really happens to children victimized by sex 
offenders. It is often the forcible rape of little boys and 
little girls. These acts of violence are captured on film, in 
stills, and on video. The images, themselves, encapsulate the 
crime scene and are the permanent evidence of the crime, the 
humiliation, the pain, and often the guilt and shame of the 
child victim.
    The first trial of my career was of just such a victim--of 
just such a criminal. A father spent the first 10 years of his 
precious daughter's life sexual assaulting her even when she 
was in diapers. An adorable red haired little girl we met after 
she waited years for someone to prosecute her case and save her 
from her father.
    Looking into her eyes, I promised her justice. Making my 
first closing argument to a jury, I trembled so anxious that I 
had done everything right for KW. So anxious that they accept 
my righteous arguments and convict this depraved man. 
Terrified, really, that they would not convict him and that KW 
would have to go back to him and endure his assaults.
    The jury convicted him, and he was sentenced to 50 years in 
prison. There are so many children who will never get the 
justice KW did. Child sexual abuse is underreported by as much 
as 90 percent. So many children, so much abuse, so much pain, 
and so many afraid.
    I used to think the hardest thing I would ever have to do 
was look into the eyes of a child and listen to her story about 
being abused.
    I was wrong. The hardest thing I ever had to do was watch 
their abuse. Sometimes still photos, sometimes video, sometimes 
with sound, all heart wrenching and even now, impossible to 
forget.
    I remember all their faces. Sometimes they had a frozen 
smile. Sometimes they cried. Sometimes they screamed. These 
images included infants and toddlers, also very helpless. Most 
of them I would never learn their names, where they lived, or 
who was hurting them. The struggle to cope knowing how many are 
out there even now will always be with me.
    No one who has seen these images is untouched by them. I 
would like to give my heartfelt salute to those analysts, 
officers, detectives, agents, and prosecutors who, today, 
search for these offenders, rescue these children, and endure 
these images.
    As the first national coordinator for child exploitation at 
the Department of Justice, I learned about how budgets impact 
the ability of law enforcement like Detective Beaver to protect 
children. When last I sat here testifying before this 
committee, I was limited by the rules of DOJ about what I could 
or couldn't say. I was asked then if I thought this crime 
problem needed more resources for agents, cops, and 
prosecutors. My answer, dictated by DOJ was, we support the 
President's budget.
    I now have no such constraints, and I can tell you today, 
as I would have liked to then, the answer is a resounding yes. 
It was yes then; it is yes now, and will always likely be yes.
    If you all could talk to a child like KW, if you all were 
forced to watch every day the images and hear the sounds of 
children being exploited, victimized, or raped, you too would 
answer a resounding yes.
    It is a sad fact that police agents and prosecutors all 
over this country are drowning in these cases. They are 
complicated, heartrending, and frustrating. And while DOJ may 
not be able to ask for help, I will ask on behalf of all of the 
children whose faces I cannot forget. Like the little girl who, 
when rescued by a U.S. postal inspector said, I knew you'd 
come. I begged for your help with my eyes when he hurt me and 
taped it. I knew you would see and come for me.
    So many others beg us for help with their eyes, and we 
aren't coming. So many millions and millions of the images of 
children being sexually assaulted are shared around the world, 
and the good guys are losing. You should see the children's 
faces and hear their voices, then maybe you would feel the same 
urgency of mission shared by police and prosecutors the world 
over. What higher mission is there?
    When we prioritize other things, we should have to look 
into the eyes of KW or children like her and explain to her why 
we haven't done everything we could to see that her father 
never hurt her again.
    I know this committee, and Congress in general, is 
constantly asked for resources for many worthy issues. Nelson 
Mandela said, there can be a no keener revelation of a 
society's soul than the way in which it treats its children. 
Given everything we know about child abuse, we are living in a 
society which has lost its soul. We can, we must, do better. 
Thank you.
    Mr. Gowdy. Thank you, Ms. Hakes.
    Detective Beaver.

          TESTIMONY OF DETECTIVE PATRICK MCNEIL BEAVER

    Mr. Beaver. Good afternoon, and thank you very much for 
having me here today.
    Coming before you today is an honor to really describe what 
we see through the eyes as a detective, investigator, or 
special agent, and the complications that we have in our 
investigations and the successes we have in our investigations.
    I'm with the Loudoun County Sheriff's Office special 
victims unit. With that, I'm task forced out to the Internet 
Crimes Against Children task force. We aggressively go out each 
day, hunt down child predators, rescue victims, get them 
services, and allow them to go back to a normal lifestyle that 
they deserve.
    Even this morning, before coming here, we did a search 
warrant at 3:30 or 4:30 in the morning. We stay busy every day, 
and we will continue staying busy fighting the exploitation of 
children.
    What I want to cover today is some of the issues that we've 
encountered in investigating these crimes and the legal process 
that hinders us from finding the bad guy, hinders us from 
finding a child victim, whose identity could be stuck in the 
cloud encrypted. So I will go into details in regards to that.
    A child victim is solicited online, giving you an example, 
through social media to produce child pornography. Exploited by 
an unknown suspect and has sent several videos of child 
pornography to the suspect. The child victim has received 
threats and to keep producing child pornography or he will 
send--he or she will send those videos and pictures to families 
and friends. This is a common report we get sometimes two, 
three times a week in the northern Virginia-D.C. area.
    Someone who is trapped in their own home by the 
exploitation of this child predator through the safety of their 
home. Their home, they could be sitting at the dinner table, 
suspects sends them a message, you need to go to the bathroom 
and produce child pornography now, or I will do this, this, and 
this. I will send these photos, these videos.
    The young 10-year-old, 11-year-old--constantly, 11-year-
old, 10-year-old, or younger, are trapped by this. They are 
unable to reach out to their family because of these threats, 
and they could live with this for hours, days, months, or 
years. And by the time we get to the victim, there could be 
hundreds of videos or images that are submitted.
    When we submit legal process to whatever company that they 
use--you could pick any of them--we run into hurdles. And I 
want to get into some of those hurdles that we come across.
    With submitting legal process to companies here in the 
United States, we receive emails back stating, we will notify 
the user of this account, the child predator. Think about that: 
We will notify the child predator. Yes, that is a customer of 
theirs, but also, that young victim was a customer of theirs. 
Okay?
    We fight with them sometimes weeks at a time to just get 
them not to disclose to the predator. While certain laws in 
certain States are better than others that allow for 
nondisclosure, sometimes the companies do not accept those, and 
then, again, we get another email back saying, we will notify 
them, give them 10 days to challenge it, and have the ability 
to--for them to challenge it. And it comes back to us. And it's 
a ping-pong, back and forth. Meanwhile, that suspect is 
exploiting other children and is continuing with that process.
    At times, they notify the suspect of our legal action. 
That, alone, you don't know how many victims we could've saved 
by just having an IP address to identify the suspect, to hold 
from notifying them for 90 days, and we don't--we don't have 
that.
    Another issue we encounter is legal process that they do 
not notify, is our legal return. Our legal return, at times 
they'll say, well, we could give up the content that we store 
on our servers here in the United States, but we will not give 
you the content that we store outside of the United States. So 
you get one piece of the pie in your investigation, which may 
just be nonsense metadata that exists on our servers in the 
United States, but maybe in a server in a different country 
that this U.S.-based company has, no longer follows our legal 
process.
    I would also say there are other companies that are outside 
of the United States that we send legal process to who honor 
our legal process, turn around, give us the response within 1 
or 2 days to help us rescue a child, help us identify the 
suspect, and be able to move forward with our case.
    This is the brick wall we hit as investigators, and this is 
a true thing that we encounter on a day-to-day basis. I know 
that I speak for each agent, detective, investigator who works 
these cases, and in human decency, how we can notify a suspect 
of a legal process before we've executed that search warrant, 
you know----
    In closing, I thank you very much for having us here today. 
And--thank you.
    Mr. Gowdy. Thank you, detective. I promise you, and I will 
get into that during the Q&A. So hold that thought.
    Ms. Pittman.

                  TESTIMONY OF NICOLE PITTMAN

    Ms. Pittman. Thank you for the opportunity to testify on 
this important issue. My name is Nicole Pittman. I run the 
Center on Youth Registration Reform at Impact Justice. We are 
all here because we want to--we deeply care about children, and 
we want to prevent them from being harmed.
    Over the past 20 years, Congress has enacted a series of 
well-intentioned legislation designed to combat crimes against 
children, but we must ask the question: What happens when these 
laws unintentionally harm the very children we seek to protect? 
Who are the children caught in the cross hairs of policies 
created to combat crimes against children? I'd like to share a 
story about Bobby.
    Bobby is from Texas. He was 11 years old and lived in an 
area with a lot of kids. They were playing a game, and a 13-
year-old was in charge and said, let's play this game. I'm 
going to turn off the lights, everybody take your clothes off 
and try to get dressed as quickly as possible. Bobby was a 
class clown, decided to not put any clothes on. The lights went 
on. Bobby was naked. Everyone laughed. Bobby put his clothes 
on. They ate pizza, the night was good. When Bobby--the little 
girl, the 6-year-old girl that was there, was picked up by her 
mother, she said, I saw Bobby's penis. The mother reacted in a 
very commonsense way, and the case went to the police. A couple 
of days later, she found out what happened, but they said we 
could proceed without the victim.
    Bobby was adjudicated delinquent in Juvenile Court of 
indecent exposure, which is a registrable offense, and he went 
to juvenile detention from the age of 11 till 18 where he 
received juvenile sex offender treatment. When he got out, he 
was a registered sex offender, where you can't live anywhere 
near children and can't live with children under 18. He 
couldn't find a place to live.
    That's a felony conviction servable by 2 years in prison, 
Bobby went to prison 2 years. This happened two more times. 
Three felony convictions for failure to register. Bobby 
couldn't get a job when he got out. At some point he was so 
desperate to try and make a living, he was convicted, 
eventually, of receipt of stolen goods. I went down to that 
hearing, and the Judge said, because you are a career sex 
offender, I am maxing you out to 15 years in the State 
penitentiary.
    Bobby's story is not unique. This is happening to many of 
our kids. It's estimated that about 200,000 kids have been 
placed on registries in the 20 years we have been registering 
kids. Not just by the Adam Walsh Act, of course, but in the 20 
years. We're talking children 8, 9, 10, 11 years old, many on 
for life.
    Kids end up on the registry for many things, playing 
doctor, streaking, having sex with teenage classmates, sexting. 
I'm working with a young man now, who is 14, that's on registry 
in Minnesota, for sending a picture of his own genitals to a 
classmate. He's the victim as well as the perpetrator of this 
sexting.
    So I went around the country and interviewed 500 people on 
registries, raised on registry, all adjudicated in Juvenile 
Court not Criminal Court. One of the things I found out is that 
100 percent of those kids, 100 percent of the 500 kids, were 
victims in the child welfare system before they went on the 
registry.
    So we're putting children that are victims on our 
registries, and the registry doesn't work. There have been 20 
years of research from one of the people sitting here, Dr. 
Elizabeth Letourneau of Johns Hopkins saying research 
definitively shows registration does not work for children. It 
doesn't make us safer. Kids do not reoffend. The recidivism 
rate for children who commit sex offense is 2.75 percent. The 
harm is great. We see with Bobby, unemployment, vigilante 
attacks, homelessness, stigmatization. Sadly, one in five 
attempt suicide. And we've heard that most of the crimes do 
happen in the home.
    So what we know is a child on the registry is a family on 
the registry and also a victim on the registry, a victim 
sibling on the registry. We know what does work. Treatment 
works. Children respond very well to treatment.
    We have people that have been working on this issue. Patty 
Wetterling, who doesn't believe children should be on 
registries. Stacie Rumenap of Stop Child Predators helped pass 
the Adam Walsh Act, is now working with us to say, remove 
children from the Adam Walsh Act. In fact, States--when the 
time the Adam Walsh Act was passed in 2006, States were moving 
towards getting kids off the registry, but now the mandate 
makes them--leaves them on and makes--States have to move in 
the opposite direction.
    So what are our lessons learned? We've learned that since 
the Adam Walsh Act was passed, these registries are full of 
children who have been victims themselves. We've learned that 
treatment works. We know that a child on the registry faces 
lots of stigma. Thanks to research from R Street Institute, we 
know that it costs $3 billion to register children. This could 
be spent on upstream solutions, such as interventions, that 
actually stop or prevent harm from happening in the first 
place.
    So how do we fix this? We can look at it with what the 
antitrafficking community is doing. They've learned that laws 
intended to protect victims have unintentionally harmed them. 
The same thing is happening with the Adam Walsh Act. Advocates, 
survivors, and lawmakers on both sides of the aisle agree it 
was a mistake. It's time, indeed, to pass--to fix it. I urge to 
exclude children, adjudicate a delinquent in Juvenile Court 
from the Adam Walsh Act. Thank you.
    Mr. Gowdy. Thank you, Ms. Pittman.
    The chair will now recognize the gentleman from Texas, Mr. 
Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. Thank you all for 
your work and being here today.
    And, Mr. Shehan, you had mentioned that you receive so many 
tips you have to triage them. What methods do you use to 
triage? What's the most important?
    Mr. Shehan. Thank you. It's an excellent question. We 
have--of a ranking system, and it's based on the information 
that's received. We have a hotline that are there 24/7 that 
reviews all of these leads that come through. And in some cases 
you may have a company that's aware of an imminent situation. 
And they are going to escalate that report and bring it to our 
attention.
    But oftentimes it's a parent or someone who is calling in 
and giving those key indicators that you have a child takes 
about to go and meet with someone. And there's imminent danger 
for that child. We escalate those reports. Those are our 
highest priority. It's the type of case that we're going to 
wake up Detective Beaver or some of the ICACs in the middle of 
the night so they can address that situation. But every time 
that case comes through, every report, it's reviewed, and it's 
triaged based on that imminent risk to the child if their life 
is believed to be in danger.
    Mr. Gohmert. When you are provided with child pornography, 
do you have any way of assessing, giving a rough percentage, 
about how often you are able to identify the children?
    Mr. Shehan. Yes. That's a key component to both the 
CyberTipline and our victim identification program. We have 
worked with technology partners, such as Microsoft, to develop 
tools, like photo DNA, that allows for robust image matching 
technologies. And the idea is to weed out known images.
    Our victim identification program is there specifically for 
that purpose of keeping track of which children have been 
identified so they can, in turn, focus on those new victims and 
help law enforcement ensure that that victim can be rescued 
from that harmful situation.
    Mr. Gohmert. Ms. Hakes, I'm grateful for your work. When 
you see girls who are used in sex trafficking, and they are 
victims, themselves, do you end up seeing them prosecuted 
themselves very often? How often if they are?
    Ms. Hakes. Mr. Gohmert, that's a great question. And a lot 
of States are struggling with that very issue when it comes 
specifically to child sex trafficking. Something called safe 
harbor laws are making their way around the country where 
States are adopting not prosecuting children who are being 
forcibly prostituted. I certainly support those laws.
    I would like to say--if you don't mind. I would like to say 
something Ms. Pittman said earlier about all of the 500 former 
children that she spoke to who grew up on the registry had been 
victimized or in some way prior to that. And I just wanted to 
say, on the victims' behalf, the vast majority of victims never 
become offenders.
    And I want us to be very careful that we don't accuse 
victims of child sexual abuse as having some greater percentage 
chance of becoming victimizers, because they have no greater 
chance of becoming victimizers than the average person in the 
population. So I just wanted to clear that up.
    Mr. Gohmert. I know, I think--was it somewhere in 
California, I think, one of the cities there, maybe San 
Francisco, had taken away the illegality of someone under a 
certain age engaging in sexual activity, which it's--I 
understand motivation is to try to keep from making victims 
victims further.
    But, on the other hand, from my experience as a judge and 
as a prosecutor, there are times when that's what gets the 
child out of the situation they're in. And if it's illegal, it 
seems like that would be more motivation for pimps, or whoever 
is doing the sex trafficking, to get more and more kids, 
because, gee, it's not illegal for them to do it.
    Detective Beaver, do you have an observation about whether 
it should be illegal or not for children to engage in 
inappropriate sexual activity?
    Mr. Beaver. In regards to that, we find sometimes the only 
way to get them the services that they need is through the 
court. We seek them to voluntarily go and have treatment and to 
be able to be reentered into society and not have to be in that 
world.
    But, unfortunately, sometimes the only way to do it is 
through forced services through the courts. But I would argue 
that there should be a multilayered--not just a one charge fits 
all for those situations and a better look at what violation 
there is that fits their situation.
    Mr. Gohmert. Thank you. My time has expired.
    But it seems like it may be more appropriate to make sure 
prosecutors and judges are educated about the role they can 
play rather than making that kind of activity legal.
    I yield back.
    Mr. Gowdy. The gentleman yields back.
    The chair would now recognize the gentleman from Michigan, 
Mr. Conyers.
    Mr. Conyers. I want to thank our witnesses today. This is a 
very important and sensitive subject.
    I wanted to ask Ms. Pittman, first, you testified that the 
States are still grappling with the question of juveniles and 
that the Sex Offender Registration and Notification Act 
compliance. Can you tell us a little bit more about that and 
why this situation exists?
    Ms. Pittman. Absolutely. So when 2006--the Adam Walsh Act 
was the first Federal law as we know to include juvenile 
adjudicated delinquent. That was an amendment that happened at 
the very last minute. So in terms of the interplay of how we 
put kids on the registry in States by guidance, by Adam Walsh 
Act, there's problems.
    So, for example, it's supposed to be anything more serious 
than aggravated sexual abuse. However, certain statutes, South 
Dakota, for instance, does not have a consensual statutory 
exception so that a 14-year-old with a 13-year-old--you can't 
consent to sex under the age of 14. A 14-year-old, a 13-year-
old is convicted, adjudicated, of forcible rape. So that is a 
rape in South Dakota. So if we said, hey, we want to get only--
we're only going to keep serious children offenders, under the 
registry, we would exclude all of those kids where it's a 
consensual sex offense.
    So the problem is that the Adam Walsh Act, really, has 
extra punishments when the child is under the age of 14, but 
they are not looking at who the perpetrator is. And so that 
translation is just coming out disproportionately against 
children.
    The other thing is, that as I mentioned, is that States are 
moving in the direction, 2005, 2006, we just had Roper v. 
Simmons where we found out kids are different. Got rid of the 
death penalty for juveniles. And at that time States were 
looking at the research and saying, we don't think we should be 
putting kids on registries, but then the mandate came down 
saying that they had to. So States really can't even follow 
what they want to do with their own public safety because of 
that mandate.
    Mr. Conyers. What's your view of how this could be 
corrected?
    Ms. Pittman. In terms of how it could be corrected, 
juveniles were actually included in the act with--in five 
words, basically saying, for purposes of registration, a 
conviction includes a juvenile adjudication. That's never 
happened in any law where we're redefining what a juvenile 
adjudication is.
    What I think is that we should take juveniles out, those 
five words, those--out of the Adam Walsh Act and allow States 
to do what they need to do, but also use that $3 billion that 
is--that we're using for registering just children to use for 
prevention, intervention, and treatment services.
    There are 10 States that have absolutely never registered 
children and, in fact, their incidences of child-on-child 
sexual harm are lower, and in some States, their recidivism is 
lower. Registration has no effect on stopping child-on-child 
sexual harm. We need to be putting things on the front end to 
stop it from happening.
    Mr. Conyers. Ms. Hakes, aside from prosecuting people who 
prey on children, can you discuss the importance of a holistic 
approach, variety of disciplines, to the problem of child 
sexual abuse?
    Ms. Hakes. Yes, sir. Thank you very much.
    We're never going to prosecute or investigate and prosecute 
our way out of child sexual abuse. That's just a simple fact. 
There is far too much of it to begin with. The National 
Children's Alliance noted that in 2015, alone, 300,000 children 
were seen by child advocacy centers around the country.
    And if you do the math, which I was told there wouldn't be 
any in this hearing, but if you do the math and extrapolate, 
that's one year, and if child sexual abuse is underreported 75 
to 90 percent, you're talking about anywhere between 1 in 3 
million children a year maybe being abused, and we're only 
seeing 300,000 of them through child advocacy centers.
    So one part of the holistic approach, I think, sir, is 
child advocacy centers. These centers are the way to have a 
child friendly, as much as is possible, experience for children 
going through the court systems. So this is what happens after 
there's been a crime committed. These child advocacy centers 
help children sometimes with medical exams. They help children 
with therapy and treatment, all in a child-friendly atmosphere 
by people who are specially trained.
    Many of these child advocacy centers, including some of 
those in my own home State of Georgia--I'm on the board of a 
child advocacy centers of Georgia, many of these child advocacy 
centers simply don't have the funds. They have medical 
personnel, sometimes therapeutic personnel at the child 
advocacy center.
    A child has to go to the detective's office, to a police 
station, to a hospital for an invasive medical exam. These 
things all contribute to the recantation rates of children who 
have been sexually abused, who, once they start experiencing 
the criminal justice system, they recant. These child advocacy 
centers are critical to helping children through the process, 
because children are not just little adults.
    And then on the prevention side, prevention is so 
important. Children are their own first best defense against 
being abused, and they need to be educated about it. Good 
touch, bad touch just isn't working. We've been doing that in 
schools for what, a couple of decades. It's not working. Mr. 
Shehan said child pornography reports aren't decreasing. So if 
child sexual abuse is not decreasing, what aren't we doing? 
We're not arming children with knowledge. We're not arming 
teachers, and parents, and coaches, and the clergy with 
knowledge to look for the predator next door, the predator in 
the next house, the predator in the next classroom.
    Without these kind of, as you noted, holistic approaches, 
we're never going to prevent child abuse, and all the cases 
will fall to Detective Beaver to try to locate the children, to 
NCMEC to try to identify them, and to prosecutors to try to 
prosecute the cases, and it's never going to be enough.
    Mr. Conyers. Thank you so much.
    Mr. Gowdy. The gentleman yields back.
    The chair will now recognize the gentlelady from Alabama, 
Mrs. Roby.
    Mrs. Roby. Well, first, I want to thank you, Mr. Chairman, 
for holding this hearing.
    This is a very tough subject matter, but a most necessary 
conversation.
    And to all of you that are here today, as Momma, I will 
tell you, it means a lot for you to share your experiences and 
your stories. And as a new member of this committee, I'm really 
just honored to be a part of this legislative body to have an 
opportunity to fight on behalf of the victims and do what we 
can to give you the tools that you need to further prevent 
these horrific acts against our Nation's children.
    So, I was struck a bit by your testimony, Ms. Pittman. As I 
understand it, the numbers that I have in front of me--and I 
was very surprised to learn that 200 of the roughly 900,000 
individuals on the sex offender registries are children. And 
you've made a very strong recommendation that--in proposing 
that all children be eliminated.
    I did watch the faces of the other folks on the panel as 
you were giving your testimony, and I wanted to give you an 
opportunity to respond to that. I think that there has to be 
some middle ground on this issue, and I think it's incumbent 
upon us on this committee to hear from the others on the panel 
with your expertise as well to have an opportunity to respond 
to that.
    So, I don't care what order, but if you would weigh in, 
that would be most helpful.
    Ms. Hakes. Thank you, Congresswoman, I appreciate that. 
There's no question that it is a troubling topic when you think 
about children abusing children. But in my practice as a 
prosecutor, I have handled cases of children abusing children.
    I had one case that was a gang rape case of an 11-year-old 
girl by 20 men and boys starting at age 11 and ranging all the 
way up to age 30. This little girl was mentally disabled and 
was trapped in a closet for 8 hours while these 20 men and boys 
took turns sexually assaulting her.
    The one that was under 12 was treated as a juvenile. That 
was a sex offense. He attacked her in a dark closet while they 
videotaped it. There's no question that that child understood 
what he was doing was wrong. And I will fight to my dying 
breath to say that the public deserves to be protected from 
him, and that is the purpose of a registry. It is not punitive. 
It may have punitive consequences, as sex offenses should. But 
the purpose of it is public protection.
    And you, who are a mother, would you or would you not like 
to know that the man living next door, 5, 8, or 10 years ago, 
trapped an 11-year-old mentally disabled girl in a closet and 
sexually assaulted her, or do you think it's okay not to know 
and your kids might play in his backyard on his trampolines? We 
have trampolines in the south.
    This is why there is leeway given on the registry. The Adam 
Walsh Act requires registration for serious offenses for 
children over 14. States deserve to make some of their own 
decisions on this. The district attorneys in those States are 
in the best position to assess whether that 11-year-old boy 
that I prosecuted should be on--should convicted of a 
registrable offense. But I will always defend the right of the 
public to know that they are forced to live next door to a sex 
offender, and that is the function of the registry.
    Mrs. Roby. Thank you.
    Mr. Shehan. Well said, Francey.
    I'll be brief, because I know your time is tight.
    No registry is perfect, and I think critical voices are 
important to encourage a review and to help make improvements 
along the way.
    I saw some comments and testimony by Director Harlow of the 
United States Marshals Service last year, where he, based on 
some of these criticisms and the quite high numbers, these 
200,000 statistics, he had the U.S. Marshals dive into the 
registry and a bit of this data. And according to their review 
last year, it was around 2,000 juveniles that are on the 
registry. And they're for very serious offenses. They must be 
at least 14 years old at the time--what I would consider worst 
of the worst.
    So, in many ways, I would encourage this committee to reach 
out to the United States Marshals Service, the SMART Office, 
and try and get some of that updated information and dig into 
it a bit more. You may have some updated numbers, and it's not 
nearly as high as some may suspect.
    Mrs. Roby. So my time has expired, Chairman, but, 
Detective, if you want to respond for the record, that would be 
great. I'd love to hear your perspective.
    Mr. Chairman, I yield back.
    Mr. Beaver. Quickly, I will--I have dealt with these 
situations for years, working special victims' cases, where you 
have a situation where you have to go to the prosecutor and 
say, we are charging this child, this juvenile, for this 
horrible act that they committed against another juvenile or 
sometimes against an adult.
    We weigh heavily on our prosecutors to be educated and 
assisting us with kind of an MDT approach, a multidisciplinary 
approach, to what is best for the child, what is the best for 
the public and the safety of the public. And we weigh each case 
heavily on these MDT meetings.
    But I would say that we have encountered juvenile sex 
offenders who, in my career, are some of the scariest people 
I've ever met. And in my written statement, I placed that in 
there.
    Mr. Gowdy. The gentlelady from Alabama yields back.
    The chair would now recognize the gentlelady from 
California, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    What was the scariest thing? What did you just say? I'm 
sorry.
    Mr. Beaver. Yes. I'm happy--it's a case that I worked over 
multiple years involving a juvenile. And by ``scariest'' is 
what the potential of that individual could have done, in 
separate occasions could have killed four juvenile victims.
    This was a 16-year-old male who attacked two juvenile 
females on the way to school one day on a bike trail behind his 
house that he sees people walk on every day--attacks them. They 
fought back. Luckily, another student who walked by as well, 
they fought back, clawed him in the neck, and he ran away.
    When interviewing him post-Miranda, after giving him his 
Miranda rights, he stated that he had every intent to take them 
back to his home, or at least one, to molest them and then push 
them in front of a bus.
    Ms. Bass. Okay.
    Mr. Beaver. To continue on----
    Ms. Bass. Gotcha.
    Mr. Beaver. This further down, we encountered him again 
after he got off the registry. At the age of 19, he was 
released from DJJ, which is our juvenile justice. Within a 
year, he attacked younger children, while he was on the 
registry, while he was GPS-monitored, while he was allowed to 
work inside of a restaurant.
    Ms. Bass. Okay. I did want to ask you--thank you.
    And I also want to thank all of the panelists for the work 
that you do.
    I wanted to ask you, Detective Beaver, a couple of 
questions, because you were making reference in your testimony 
to companies. You talked to them about notifying, essentially, 
the predator. And I wanted to know--and you also talked about 
some barriers, and I wanted you to elaborate about that.
    And I don't want to run out of my time, because I would 
like Ms. Pittman to respond, you know, as well.
    Mr. Beaver. Quickly going over the barriers, we do have 
companies that--several companies that will use verbiage as the 
following: Yahoo will respond to us to--they will notify users 
about governmental requests for their information except when 
prohibited by law. I submit to you that several States lack 
those laws in order to protect the children in the legal 
process in trying to get the legal returns. They say that this 
is a policy within their own agency or their own company, and 
for certain circumstances they're able to waive that.
    So we write back, we say, we are looking--this is a child 
exploitation case. Outlined in my affidavit is some of the 
worst things you will ever read about the exploitation of a 
child, the rape of a child. And we get the response, this 
generic response back that, well, you need to submit to us a 
nondisclosure order or show that the child is in imminent 
danger.
    Ms. Bass. In your written testimony, do you elaborate on 
the barriers that are there? Because it sounded like you were 
making reference to some recommendations for the committee as 
to how we could respond to the barriers.
    Mr. Beaver. That's correct. A unified approach, maybe even 
more of a roundtable, to address these issues with the 
companies----
    Ms. Bass. With the companies.
    Mr. Beaver. And any type of legislation that would enable 
law enforcement, with the proper legal authority, with a search 
warrant or a subpoena, that we have to establish probable cause 
in front of a judge or a magistrate to get that legal paperwork 
to them.
    Ms. Bass. Ms. Pittman, you mentioned, I think you said 10 
States that do not allow children on the registry. And I was 
just wondering if--and you said that they hadn't had any 
problems. So I was just wondering how you would respond to 
Detective Beaver and the cases that he mentioned, as well as 
Ms. Hakes.
    Ms. Pittman. Thank you.
    Yes, 10 States have never registered, some because there's 
a constitutional issue, but others because they believe that 
they have the secret of how to monitor children. So, number 
one, that children get treatment in the juvenile justice 
system.
    The second thing, though, what we have is, when we have a 
16- or 15-year-old, in New York it could be 14, they can be 
certified to adult court. The kids that I am talking about are 
children adjudicated delinquent in the juvenile justice system, 
where you can't bring cameras in, you can't use their real 
names, there's confidentiality, and they don't have the same 
due process. This is kids in family court are the only children 
I'm talking about. We do have certification laws.
    The other thing is, the Federal Adam Walsh Act, when I say 
removal, removing the mandate to put children on the registry 
so that States can figure this out themselves. Because at one--
I believe the Adam Walsh Act has a very good purpose, and the 
purpose is to have a comprehensive system and not have the 
leaky patchwork of States, different States. But the way that 
they have to change, the SMART Office has to change their laws 
in order to get juveniles--Maryland, a child can get off the 
registry in 5 years; they're in compliance. South Carolina, a 
child is on the registry for life, on the public website, and 
has GPS monitoring. It's moving us away from the intent of the 
Adam Walsh Act because of the inclusion of children. So I'm 
really just talking about the mandate.
    The last thing, the 200,000--I really have worked with and 
tried to work with the SMART Office and Mr. Lou deBaca. We had 
a conversation a few months ago about this. One of the problems 
is that there is no key to decide who a juvenile is, a juvenile 
adjudication. It goes on as a conviction. You have to manually 
search to figure out what people went on as juveniles in 
juvenile court.
    So the 2,000, I am really interested in finding that out 
too, because in the State of California, there are 3,000 kids, 
juveniles. In the State of Texas, there are 9,000. This is all 
since 1994. So right there and then, we're already over 2,000.
    So those were just some of the points.
    Ms. Bass. Thank you, Mr. Chairman.
    And, by the way, in regard to California, what the 
California law says is that a child underage cannot be 
considered as a prostitute, but she would be a victim, for my 
colleague over there.
    Mr. Gowdy. The gentlelady from California yields.
    The chair will now recognize the gentleman from Louisiana, 
Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thank each of you. I will be praying that you have 
God's favor and wisdom in doing your important work. It's hard 
to listen to. And your written testimonies were something I 
wish everybody would be aware of but I wouldn't recommend 
reading for everyone, you know?
    Look, Ms. Hakes, in your written testimony, you mentioned 
further resources are needed to recognize the signs of a sex 
offender conspiring to act. And I wonder if you'd elaborate 
here on what those resources--where they would go or how we 
would enhance training, I guess, of law enforcement to 
recognize that.
    Ms. Hakes. Thank you, Mr. Johnson. Yes.
    And what I was referring to was the kind of training that 
lots of law enforcement gives. I'm sure Detective Beaver has 
done this himself. I train schools, charity organizations, law 
enforcement all around the world on something called grooming. 
And that is where you can recognize, there are recognizable 
methods of grooming children to ensure the conspiracy of 
silence and the cooperation of their own abuse.
    There are signs of child victimization that can be 
recognized and that are known around the world to 
professionals, like those sitting at the table, that you can 
train teachers, parents, children--most importantly, children--
whether that is in schools, whether that is in churches, 
whether that is law enforcement going to visit them at the Girl 
Scouts or Boy Scouts or soccer, whatever their activities are. 
Those people should all be receiving that kind of sophisticated 
training that allows them to observe the signs that an offender 
is grooming a child.
    Now, for children who are being abused at home, which--and 
Ms. Pittman noted earlier the vast majority of children who are 
sexually abused are sexually abused by someone in their circle 
of trust and oftentimes someone at home--there aren't 
necessarily any grooming signs, but there may very well be 
signs of child victimization that can be recognized by 
teachers, coaches, counselors, and others. And they should be 
trained on those so that they can hopefully intervene before 
that child is victimized for a long period of time.
    Mr. Johnson. Thank you for that.
    Detective Beaver, one complaint I hear from sheriffs back 
in Louisiana is the issue with processing and then instructing 
sex offenders on what their registration requirements are. And 
I wonder, in your experience, if you would have any ideas on 
how to make that process maybe more streamlined or make it more 
clear to those who are registered what the requirements are.
    Mr. Beaver. I can speak to the Commonwealth of Virginia. 
The Virginia State Police is in charge of the Sex Offender 
Registry and keeping checks on the Sex Offender Registry.
    I would say that they meet with them constantly, and, 
through my experience, they lay out every bit of what is needed 
from them. I'm not sure if they hand them literature as far as 
what needs to be done, but I would recommend if that does not 
exist--a step-by-step process and where they fit on the Sex 
Offender Registry and what their responsibilities are as a now 
citizen back in society.
    Mr. Johnson. Yeah. Maybe every State differs. In Louisiana, 
I think, at least in the jurisdictions we've checked on, they 
actually hand the sex offender a copy of the Federal law, which 
most wouldn't understand, you know, what that is.
    The idea would be to enhance compliance. And so if there's 
a way to streamline that somehow or put it in a vernacular or 
put it in, you know, common parlance, I guess, you know, so 
that they know exactly what's required, then when we're holding 
them accountable, it helps, you know.
    Mr. Beaver. I know the State troopers often have a 
roundtable with the--he sits down with the sex offenders in 
that respective jurisdiction, and they have a roundtable, is my 
understanding of what takes place. And it's that in-faith 
approach that--explaining to them where not to go, not what to 
do, and really, I think, literature breaking it down, more than 
just a Federal code, would help.
    Mr. Johnson. Thank you. I appreciate that.
    Mr. Shehan, I've got just maybe 50 seconds or so. Does your 
organization currently communicate any information or update 
the State and local agencies that oversee absconded offenders 
of your specific efforts in apprehending noncompliant sex 
offenders?
    Mr. Shehan. So, in 2006, after the Adam Walsh Act was 
enacted, we at the center created a sex offender tracking team. 
That group of analysts specifically works with local, State, 
tribal, and Federal law enforcement, primarily United States 
Marshals Service, to assist as they investigate noncompliant 
registered sex offenders. Since that time, we have helped in 
more than 75,000 investigations.
    Mr. Johnson. Wow.
    Thank you all.
    I yield.
    Mr. Gowdy. The gentleman from Louisiana yields back.
    The chair will now recognize the other gentleman from 
Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    Let me just kind of pick up--and, Ms. Pittman, Nicole, let 
me just say it's nice to see you. We went to law school 
together in Louisiana at Tulane.
    And, Ms. Hakes, I heard your testimony, Mr. Shehan, and the 
detective.
    In Louisiana, we incarcerate more people per capita than 
anywhere in the world--not the United States, the world. And 
many of us on both sides of the aisle believe that we've gotten 
past the point of diminishing returns in terms of 
incarceration, that every dollar we spend now on incarceration 
actually makes the country less safe, because it's money and 
it's resources that could go into making sure that people who 
should be on the registry are on the registry and other things 
to keep our neighborhoods safe.
    So I guess, as I reconcile the Miller v. Alabama case, 
where juveniles can't be sentenced to a mandatory life term 
without the possibility of parole at some point, how do we 
reconcile, one, just criminal justice reform, in terms of mass 
incarceration and are we utilizing effectively alternatives to 
incarceration, like drug courts and others, with the need to 
have resources to go after predators?
    And then the last question would be, is there middle ground 
on juveniles being forced to be on the registry, in terms of 
looking at the severity of the case? Because, oftentimes, when 
we do mandatory minimums or we do blanket cases, then you get 
unintended consequences. And I think if we look at Ms. 
Pittman's testimony of the first case, I would have to argue 
that that's an unintended consequence that most people didn't 
want.
    So, Ms. Hakes, I would start with you, and then Ms. 
Pittman, and then Mr. Shehan.
    Ms. Hakes. Thank you, Mr. Richmond.
    I have to say, respectfully, I think we're going off on, 
again, drawing on my Southern roots, what my fellow Southerners 
in the room would recognize, on a bit of a snipe hunt when it 
comes to this juvenile registration issue.
    First, with respect to the factual scenario that Ms. 
Pittman laid out, I don't know that particular case, the one in 
Texas. It sounds odd to me. I'm a former baby prosecutor, I'm a 
former district attorney. And I can assure you that if a child 
had taken off his clothes as a joke in a room full of other 
children who had just done the same thing, I would not be 
prosecuting that case. There would be no juvenile adjudication 
or prosecution. That's what prosecutorial discretion is all 
about.
    Mr. Richmond. Well, Ms. Hakes, let me just stop you there, 
because I'm a defense lawyer, and I'm also African American. 
I've been in court many times where prosecutorial discretion 
extends to the more affluent kid and it doesn't to the other.
    And I know we're all shaped by our life experiences, so I 
won't impugn to you any bias, but I have to see the world the 
way that I see it. And in my defense practice and in my life, I 
have seen where kids are treated differently based on social 
factors of income. Some kids get pushed to diversion, some kids 
get tried.
    So the question is still the same. And I'm not picking a 
fight, but the question is: Can you see a case where there 
should be some middle ground? Let's assume this kid was 
prosecuted. Could you see a sense where we could find middle 
ground?
    Ms. Hakes. Yes, sir. The Adam Walsh Act does not require 
that child to be registered, bottom line. It doesn't require 
it. He was under 14 when the supposed offense occurred.
    And with respect to your earlier question about mass 
incarceration--and, first, as far as being colorblind and 
biased, I have a bias. I am absolutely, positively 100-percent 
biased against sex offenders. And I will always err on the size 
of incarcerating someone who victimizes a child.
    I don't think we have a sex offender over-incarceration 
problem. We can talk about other kinds of cases, but I don't 
think we have an over-conviction, over-incarceration problem 
for sex offenders. It's under-incarceration.
    Mr. Richmond. And I'm not talking about--let's be clear, 
I'm not talking about sex offenders.
    Ms. Hakes. Yes, sir.
    Mr. Richmond. I'm typically talking about drug crimes.
    Ms. Hakes. So I agree with you completely. There are things 
that need to be talked about. This committee should be having 
discussions, as you are today, about the best policy with 
respect to juveniles on the registry. But we are at epidemic 
proportions of child pornography and child sexual abuse. We're 
not at epidemic proportions of children being registered on the 
Sex Offender Registry.
    So, while I certainly respect your question, I understand 
what you're saying, and I can't solve the problems that you've 
asked me about today, but what I can say is that the bigger 
problems are about, broadly, child sexual abuse and whether or 
not people like Detective Beaver and Mr. Shehan have the 
resources that they need in order to rescue these children and 
prosecute the offenders. And I say the answer is no.
    Mr. Richmond. And I'll yield back, but, Mr. Chairman--and 
we've worked on this--I think a lot of those resources that 
they need are going to prisons to house low-level drug 
offenders, that we could use that money better.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. I thank the gentleman from Louisiana.
    The chair would now recognize the gentleman from the great 
State of Texas, Judge Poe.
    Mr. Poe. I thank the chair.
    Thank you all for being here. Thank you for what you do. 
I'm a former prosecutor. I left the DA's office in Houston as 
the capital prosecutor. Spent 22 years on the bench in Houston, 
trying only felony cases. Saw about 25,000 people coming 
through the courthouse, or the palace of perjury, as I like to 
refer to it.
    And I want to specifically, first of all, thank you, Mr. 
Shehan, for what you do with NCMEC. It's a wonderful 
organization, and it has done a lot of good things for our 
country.
    I'm glad that the Adam Walsh Child Safety Act passed. It's 
coming up for renewal again. I added in that legislation the 
section 113, the registration requirement that if you leave one 
State, you've got to register in the next.
    And while a lot's going on in this building today and 
there's a lot of hearings going on, what we're talking about 
are the greatest resource we have. We're not talking about 
roads and bridges and taxes; we're talking about children.
    And myself and Jim Costa from California, we're chairs of 
the Victims' Rights Caucus that promotes victims' rights. A lot 
of it has to do with this lady right here, Jessica Lunsford.
    Jessica Lunsford, in 2005--and that was a rash of 
kidnappings, sexual assaults, and murders of children 
throughout the country. She lived in Florida. She lived with 
her dad, Mark Lunsford, who I've gotten to know very well. He 
worked for the city; he drove a truck.
    She's asleep in her house. In the middle of the night, an 
intruder comes in and kidnaps her and takes her to his house. 
And, as you talked about other cases, Ms. Hakes, he put her in 
a closet, and he took her out from time to time when he wanted 
to abuse her. And it was over a period of days. He did a lot of 
bad things to Jessica Lunsford.
    When he learned that the police was after him, he told her 
what he was going to do to her, and that's what he did. He tied 
her up with an extension cord, and he put her in trash bags, 
and he buried her alive. She was 9 when that happened to her. I 
guess she'd be 21 now.
    Because of her and what happened to her and who the 
perpetrator was--because he lived in Georgia, and he moved to 
Florida. And he was a sex offender registered in Georgia, a 
child sex offender, imagine that, crossed State lines. Nobody 
knew who he was. Didn't register. And, thus, Jessica Lunsford 
ended up being another victim of somebody who preyed on kids.
    I'm glad we added to the Adam Walsh Child Safety Act the 
requirement that if you're a sex offender and you're 
registered, you change States, you've got to register again or 
it's another Federal offense. I believe that has been 
effective.
    But, you know, we don't talk about Jessica Lunsford 
anymore. Time's moved on. And I just point this out because 
what the committee is doing, made up of a lot of trial lawyers, 
prosecutors, defense lawyers, we have an obligation to get it 
right with children and, I say, especially victims who have 
been killed or sexually assaulted, you know, just because 
they're kids. And that's who these predators pick.
    And I think we build prisons--we can talk about drug 
offenders and thieves and all of that kind of stuff, but we 
build prisons for people who hurt kids. That's why we build 
prisons, to keep them away from the rest of us and away from 
other kids.
    So I just wanted to thank you for what you all do in 
looking out for, you know, all kids, even juvenile offenders 
who are kids. Because I think we have an epidemic on our hands 
now. And now, because of trafficking--that's something we 
didn't even talk about in 2006 when this bill was passed--that 
we have more of an issue of making sure we protect our most 
valuable resource. So thank you all for what you do to make 
life better for kids.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. Thank you, Judge Poe.
    The chair will now recognize Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    I want to thank the witnesses for the work that you do. 
When I was Active Duty in the Air Force, I worked on sex 
offender cases as a prosecutor. And in the California State 
legislature, I authored and coauthored a number of bills on sex 
offenders. This is a very important issue to me.
    I, in my experience, do have the sense that sometimes it 
may take a long time for a victim of a sex offense to come 
forward, including children who are victims of sex offenses. So 
I want to ask the panel, is that true? And if it is, why does 
that happen?
    Ms. Hakes. Thank you so much, Mr. Lieu.
    It is true. And if you look, for example, at the clergy or 
Catholic Church abuse cases, we have some good statistics on 
that. And there have been as many as 10,000 victims who have 
come forward in those cases, but many of those victims came 
forward after 10 years and 20 years and 30 years and even 40 
years. And, even now, there's a percentage of them we know 
about because the priests have confessed to a certain number of 
children that they've abused, but those same children who are 
now adults have not come forward.
    And I think it's a very complicated issue, why children 
don't tell. It is often a grooming process, when you're talking 
about things like clergy abuse or abuse by a coach or a 
teacher. That is, the child is sort of bombarded with a 
constellation of behaviors designed to secure the child's 
trust, then secure the child for sexual activity, and then 
secure the child's conspiracy of silence in the end by showing 
them love and giving them gifts.
    It's almost the same way that sex traffickers gain their 
victims' trust, bring them into what they consider potentially 
to be a family, give them gifts, a roof over their head, 
clothing, and then slowly force them to engage in sex against 
their will. The same is true for child victims.
    I think, also, because most of the abuse happens in the 
family, children are very well aware that they're going to blow 
up their family when they disclose abuse. They understand 
fundamentally someone may be in trouble, someone may be going 
to jail, and they're unwilling to do it.
    I've found in my practice--I'm sure Detective Beaver can 
talk about this--that oftentimes the reason children do come 
forward is because a younger sibling is now going to be 
targeted by the offender in the family, and so they feel 
compelled. They wouldn't have done it just for themselves, but 
now they feel compelled to rescue a sibling. It's very 
complicated.
    Mr. Lieu. Thank you.
    So let me ask you, would you support extending the statute 
of limitations in the Adam Walsh Act? Should we do that?
    Ms. Hakes. I do. Many States no longer have statutes of 
limitations for child sexual abuse, and I certainly support all 
of those efforts, because I do think it is an incredibly 
complex problem.
    I tell people--I think I was telling someone at dinner last 
night--that, as a prosecutor, as a Federal prosecutor or a 
State prosecutor, I never tried a single child case where I did 
not have one person on the jury panel stand up and say, ``I 
can't sit on this case because I'm a victim.'' Some of those 
people said that was the first time they had ever disclosed 
that abuse. And one man I remember in particular was 65 years 
old, and he'd never told anyone.
    So, yes, I support those.
    Mr. Lieu. Thank you.
    Now, earlier today, you had said that we should provide 
more resources to crack down on sex offenders. Are you aware 
that the President's budget proposal has a nearly 4-percent cut 
to the Department of Justice?
    Ms. Hakes. I did read that. I think that budget came out 
this morning, and I did read that in the news, yes. Although I 
have to say I'm no longer with the Department of Justice, and 
so I don't have to support, defend, or say I oppose the 
President's budget.
    Mr. Lieu. Thank you.
    So, Mr. Shehan, first off, thank you for your work. My 
friend Sam Solakyan is on your board, tells me great things 
that you all do.
    And having, myself, worked on this issue as well, it does 
seem to me that the scale of this problem is monumental. You 
talk about 250,000 reports to your CyberTipline.
    And I'll let you, sir, answer--my time is soon up, so I'll 
let you answer this last question.
    We have a lot of laws cracking down on sex offenders, and 
there is still all this offending going on. What sorts of 
things do we need to do differently to try to mitigate this 
problem?
    Mr. Shehan. Well, when you look at the issue of child 
sexual exploitation and the internet, it's vast. There is 
tremendous work that's being done by the technology companies 
to proactively identify, remove, and report. It's fantastic. 
And from a public safety standard, that's very, very good.
    However, the internet is vast. And to kind of go back to 
the resources piece, law enforcement are overwhelmed. And, in 
many ways, they have to go into the dark corners of the 
internet to try and investigate these cases. So while the likes 
of Google and Facebook and Microsoft can actively patrol their 
own network, you've got places like Tor and the darknet, where 
there are highly sophisticated individuals who are trading 
child sexual abuse images, and you need highly trained law 
enforcement who can go into those areas and rescue those 
children.
    What we're finding are brand-new content in those types of 
forums, as well as dedicated boards towards children who are 
pre-verbal and being sexually abused, so they can't even 
identify their offenders. They're heading in that type of 
direction. You have peer-to-peer, where there's file-sharing.
    From a technological standpoint, you need to have highly 
trained investigators that can respond to these types of cases.
    Mr. Lieu. Thank you.
    I yield back.
    Mr. Gowdy. The gentleman yields back.
    The chair would now recognize the gentleman from Texas, the 
former U.S. attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    This is an incredibly important topic, one that I realize 
is difficult to talk about sometimes. I can tell you that, from 
my time as a Federal prosecutor, it is the child exploitation 
images that I have been forced to view, from an in camera 
evidentiary standpoint, that I will remember always as the most 
disturbing and difficult part of my job.
    Under President George W. Bush, the prosecution of child 
exploitation crimes became one of our core priorities at the 
Justice Department. And under Attorney General John Ashcroft, 
the Project Safe Childhood initiative was created. And it was 
in that context that I had my first interaction with NCMEC and 
was witness to the truly amazing work that is being done there.
    To that point, Mr. Shehan, as of a few years ago, the most 
prolific child pornography image series in the country, at 
least at that time, was known as the Jan-Feb series. And by 
``prolific,'' I mean the most widely shared, the most widely 
collected, the most widely traded among child predators. 
Hundreds of thousands of times, child predators around not just 
the country but around the world shared the most graphic images 
of the sexual molestation, abuse, rape, and torture of a 6-
year-old girl at knifepoint in a cage--images so disturbing and 
so grotesque that, as long as I live, I fear that I will never 
be able to get those images out of my mind.
    But the story of the Jan-Feb series victim also serves as 
an incredible testament to the importance of the issues that 
we're discussing today and the work that's been done at places 
like NCMEC and by ICAC detectives and by prosecutors.
    You see, it was a police detective working in an ICAC, part 
of the ICAC task force, who, in analyzing those disturbing 
images, saw in the background a school logo. And working with 
the good folks at NCMEC, they were able to identify the school 
and then the child and then the child's biological father, who 
was, in fact, the child predator who was raping and sodomizing 
his own 6-year-old daughter, unbeknownst to the rest of the 
family.
    Because of the good work at NCMEC and with the ICAC, not 
only is that child predator currently serving a sentence of 
more than 200 years in a Federal prison, but I had the 
opportunity to seek restitution under 18 USC 2252 and 2252(a) 
on behalf of that child victim, again, with the support, Mr. 
Shehan, of the young lady sitting behind you, the general 
counsel for NCMEC, Yiota Souras, and we were successful in 
doing so.
    And so, around all of the unhappy stories today, I'm happy 
to tell you that the victim of the most prolific child 
pornography image series in the United States has been able to 
live a remarkably ordinary life, extraordinary only in the 
sense of what she's been able to achieve, based on what's 
happened to her, inasmuch as she will shortly be graduating 
with honors from one of the finest universities in the 
southeastern United States.
    Now, I offer that as my continued thanks to NCMEC and to 
ICAC detectives and former prosecutors, but I also offer that 
as an example to my colleagues on this committee about what 
we're talking about. This is not just law and policy; this is 
law and policy that is incredibly important and, when done 
right, works well. Everything from the CyberTipline, the CVIP, 
the Adam Walsh Act, all of those things are necessary and are 
needed. And so I appreciate you all being here today.
    I am curious, Mr. Shehan, to talk a little bit about--to 
follow up on Mr. Lieu's question about the technology 
companies. Does NCMEC have any partnerships with those 
technology companies to utilize innovative techniques to combat 
current trends in online sexual exploitation?
    Mr. Shehan. Thank you.
    Yes, absolutely. We couldn't do our job without 
partnerships with technology companies like Google, Microsoft, 
Intel, Palantir, for example, and our Child Victim 
Identification Program. Since 2002, that team has reviewed more 
than 200 million images and videos of child sexual abuse at the 
request of law enforcement. We are using robust image-hashing 
technologies through photo DNA to quickly weed out the images 
that are known and have already been identified by law 
enforcement as known victims and focusing on those new 
children.
    Palantir is helping us to make sure we're not missing the 
needle in the haystack. And when we're talking about these 
needles in this haystack, we're talking about children and 
children's lives. We want to make sure that anything that comes 
through our system, we can alert law enforcement quickly so 
they can act upon those who are most vulnerable.
    So the technology companies, they are probably the shining 
star of our public-private partnership and enable us to do so 
much more. And they are in it for the right reasons. So, 
absolutely.
    Thank you.
    Mr. Ratcliffe. Terrific.
    Well, if the chairman will indulge me, I'm sure someone's 
asked this, but I had to go to another meeting, another 
committee hearing.
    But one of the things in your report really jumped out at 
me, the CyberTipline. Despite the good work being done, I know 
it's been incredibly effective, but those numbers have jumped 
at an alarming rate. I mean, 8 million--what, 4 million, it 
jumped to 4 million reports in a single year, I think, a 700-
percent increase over a 2-year period. How is NCMEC dealing 
with that challenge?
    Mr. Shehan. Well, we're certainly struggling in some 
perspectives. I mean, yes, we've gone from 1.1 million to the 
following year, 4.4 million; the year after that, 8.2 million. 
The same 25 to 30 analysts are processing those reports on a 
daily basis. So we have invested in technology. You can't hire 
an army of staff to review those types of reports, so we're 
using technology to help us work smarter and not harder along 
those lines.
    It's also a testament to how the internet companies have 
embraced technology to proactively find, remove, and report 
this content. We are thrilled to have the opportunity to 
provide them with child sexual abuse hash values from publicly 
available images or from reports they've sent to us before so 
they can find this type of content and keep it out of the 
public view.
    Mr. Ratcliffe. I appreciate the chairman's indulgence. I 
would like to ask questions of all of you, but let me just 
commend you all and thank you for the work that you've done and 
hopefully will continue to do in this important space.
    With that, I yield back.
    Mr. Gowdy. I thank the gentleman from Texas.
    I will recognize myself last.
    Ms. Hakes, there's a special bond among prosecutors and 
Congress, frankly, on both sides of the aisle. There is a 
really small chance that our previous jobs will enable us to go 
to heaven, so we are united in that. But Johnny and Judge Poe 
put their finger on it; more than anything else, we're united 
in our inability to get the images out of our heads. And 
Johnny's got them, and Judge Poe has them, and you have them, 
and any of us who did child pornography or child sex abuse 
cases.
    And it's not just the physical imagery of the abuse. It's 
trying to qualify a kid to testify. I mean, I hear the word 
``children'' used. We refer to them as juveniles, not children. 
There's no children's court in South Carolina; there's a 
juvenile court.
    If you're a child and you don't know the difference between 
right and wrong, you're not going to be prosecuted, but you're 
also not going to be able to testify. So trying to get a 4- or 
5- or 6-year-old kid qualified to testify in his or her own 
abuse case, that's the image that I'm sure you still--as well 
as a defense attorney positioning himself or herself so that 
child has to look at the perpetrator while he or she is telling 
what happened to them.
    So I go last because I want to encourage my colleagues to 
come--and they were great today in their participation, but I 
also want to kind of close up any loose ends.
    When I hear the term ``children,'' there is no children's 
court in South Carolina. There's a juvenile court, and it is 
for those under the age of 16. And there is a judge. So not 
only do you have to have a conviction, you have to have a judge 
exercise his or her discretion to put that person on a 
registry.
    And you put your finger on it. A registry a notification 
document. The public is hereby notified that this happened.
    Mr. Shehan, if there is an 8-year-old, as Ms. Pittman says 
there is, if there is an 8-year-old that is on the Sex Offender 
Registry for life, that 8-year-old needs a new lawyer, not a 
new law. They need a new lawyer. I'd be curious if the Marshals 
found any 8-year-olds that are on the Sex Offender Registry for 
life. And I would love a list of all 8-year-olds who are on the 
Sex Offender Registry for life. Because they need a new lawyer, 
or else it's the most egregious fact pattern an 8-year-old has 
ever committed.
    Detective Beaver, I said you and I would come back to this. 
This is what I want you to do for me. We won't do it today, and 
I've got to get the permission of the chairman of the full 
committee, who's already not happy with me because I had him in 
California and not Virginia. But if we can work through that, 
this is what I want you to do for me. I want you to give me a 
list of the providers that are giving you a hard time. And 
we'll have another hearing. We may let them come and publicly 
explain why they are having a hard time complying with law 
enforcement in child exploitation and child abuse cases. My 
guess is that would be a very tough public explanation for 
them.
    So give me the names of the providers that you're having a 
hard time dealing with. And I may not make them do it, but I 
can make them come and explain why they're doing it. And my 
guess is they won't want to do that. Their customers, 99.9 
percent of their customers, would expect them to work with you, 
not to thwart you.
    In my remaining time, Ms. Hakes, I want you--you mentioned 
the child advocacy centers. Not only are they indispensable in 
the prosecution of child exploitation and child sex abuse 
cases, at least in South Carolina, an alarming number of them 
are not even funded at the State level.
    So would you agree with me that having someone particularly 
trained in prepping witnesses for trial is an indispensable 
aspect to your success as a prosecutor?
    Ms. Hakes. Yes, Mr. Chairman. Absolutely, 100 percent 
indispensable.
    Mr. Gowdy. All right.
    So we have the victim component, where they are entitled to 
certain rights as the victim. You have the indispensability of 
their--the necessity of their testimony at trial, all of which 
is a law enforcement function, all of which is a State 
function.
    So why are the States and the counties not funding what is 
primarily a State crime?
    Ms. Hakes. Because they're cheap, and kids don't vote, 
unfortunately. I truly believe that. Like I said, there are 
795-ish certified by the National Children's Alliance child 
advocacy centers around the country, and the vast majority of 
them have to seek private funding to keep the doors open. 
There's no excuse for it. I don't understand the lawmakers in 
the States.
    The Federal Government gives some money to the National 
Children's Alliance, and they, in turn, dole a very small 
amount of money out to these centers. But they're seeing 
hundreds of thousands of kids every year, and I guarantee 
that's one of the reasons why kids recant, are incapable of 
testifying, don't get up on the witness stand.
    So that's why, even though you have a number of cases 
brought, they never lead to a conviction, because children need 
advocacy centers and a child-friendly process to go through 
this very difficult system, and they don't have it.
    Mr. Gowdy. And you would agree with me that these are among 
the very toughest cases of all to prosecute. So you're either 
going to have a child as your star witness or you're going to 
have a pediatrician, preferably highly trained in being able to 
detect indications of abuse. But I never once had DNA in an 
incest case or a child sex abuse case. It's a witness, and it's 
an expert, and it's maybe a forensic therapist. Oftentimes, all 
of them come under the Children's Advocacy Center, and very 
little money is dedicated to that at the State and local level, 
and I find it astonishing.
    I'm out of time. I'll tell you what I would benefit from, 
based on your experience as a prosecutor. If there are 
investigatory, procedural, or evidentiary things that you think 
Congress should look at, for which we have jurisdiction, that 
would level the playing field for child victims--and I'm 
thinking about everything from the legality of allowing a child 
to testify behind a veil, where they don't get stared at by the 
perpetrator and 12 adults they've never met before.
    Any of that that you have in your experience that has 
leveled the playing field for victims, I would greatly 
appreciate your sharing it with me. And I know my friends on 
both sides would, as well. So----
    Ms. Hakes. Yes, sir. Thank you.
    Mr. Gowdy. I will recognize Mr. Conyers if he has any 
closing remarks.
    Mr. Conyers. No, sir, I don't.
    Mr. Gowdy. Well, I want to thank the witnesses, especially, 
for coming. There's not a more important topic that we will 
deal with. So thank you for your expertise. Thank you, all four 
of you, for the way that you spend the other 364 days out of 
the year.
    And if you have suggestions on what we can do to help or 
make it better, no matter whether it's the registry for 
juveniles or investigation, prosecution, hotline, you name it, 
let us know.
    And, with that, we are adjourned.

                                  [all]
</pre></body></html>
